                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: A07020009                                                                      Page 1 of 1



                   NSF OIG received information that a university1 Institutional Review Board (IRB)
           terminated work on an NSF-funded proposal2and ordered a portion of the data destroyed because it
           found numerous violations. These violations included unapproved medical and cognitive testing,
           inappropriate data sharing, lack of data anonyrnization,inadequate data storage, and work performed
           during lapses and non-compliance closure in IRB approval. In examining the documentary evidence,
           we also noted the University expended award h d s during the periods of non-compliance closure.
           Lastly, we contested the destruction of NSF-hded data.

                   Our investigation concluded that although the PI^ and CO-P? should have more cognizant of
           their responsibilities under human subjects regulation, specifically in regard to the unapproved
           testing, they believed they were in compliance with IRB policies. They performed the medical testing
           at the request of their research subjects to allay their subject's immediate medical concerns; they
           were in communication with the IRB during lapses and non-compliance closures believing such
           communication ensured compliance; the approved protocol vaguely stated they would conduct
           cognitive testing and the IRB continually approved the protocols without seeing the proposed tests;
           and the IRB never requested a list of researchers with whom the data would be shared.

                    Our investigation also concluded that the University did not expend money knowingly; that
           the university is modifjmglcreating policies for non-compliance closure and post-award office
           notification; that IRBs are granted autonomy in the determination of data destruction, based on the
           totality under circumstances when data are collected inappropriately; and that its decision to destroy
           data collected out of compliance is reasonable.

                   We will send the University, the PI, and Co-PI letters reminding them about the need to
           ensure compliance with federal and university IRB and grant regulations. Accordingly, this case is
           closed.




I'
 NSF OIG Form 2 (1 1/02)
